DLA Piper LLP (US)
500 Eighth Street, NW
Washington, DC 20004
www.dlapiper.com
Peter Karanjia
peter.karanjia@dlapiper.com
T 202.799.4135
F 202.863.7855

January 6, 2020
Via Electronic Filing and
By E-mail to dbickell@supremecourt.gov
The Honorable Danny Bickell
Deputy Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

James Dwight Pavatt v. Tommy Sharp, No. 19-697 (U.S.) (Capital Case)

Dear Mr. Bickell:
As counsel of record for Petitioner James Dwight Pavatt in the above-referenced case, I
am writing to waive the 14-day waiting period for the distribution of the petition for a writ of
certiorari, brief in opposition, and reply, pursuant to Rule 15.5.
I also respectfully request that the above-referenced case be placed on the paid list for the
January 24, 2020 conference. We intend to file Petitioner’s Reply by the January 8, 2020
distribution date for that conference.
Very truly yours,
/s/ P. Karanjia
Peter Karanjia
cc: Jennifer L. Crabb (via email and overnight mail)

